No. _ _ _ __

Jn'<Ebe
~upreme <!Court of tbe Wniteb ~tate~
FREDRICK DEVONE FLEMMING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 12th day of October,
2021, I filed the original and ten (10) copies of the Petition of Writ of Certiorari and
Motion for Leave to Proceed In Forma Pauperis with the United States Supreme
Court via UPS Ground Transportation. I further certify that I served one copy of
said Petition via UPS Ground Transportation addressed to the following:
Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Supreme CtBriefs@USDOJ.gov
(202) 514-2217

Kimberly F. Davis
Office Of The
United States Attorney
251 North Main Street
Suite 726
Winston-Salem, NC 27101
kim.davis@usdoj.gov
(336) 333-5351

Counsel for Respondent

,F~;2J~f t :RTaylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Mark A. Jones
BELL, DAVIS & PITT, PA
100 North Cherry Street
Suite 600
Winston-Salem, NC 27101
(336) 714-4122
mjones@belldavispitt.com
Counsel for Petitioner

Signed and subscribed before me on this 12th day of October, 2021.

Bradford e. Moore
NOTARY PUBLIC
Commonw111lh of Virginia
Rig. "7241026
Mr COmmlulon Expires
""ft,

Ap;il30,.,.

